     Department of Homeland Security

     ��������������������������


      FEMA Could Realize Millions in Savings by 

     Strengthening Policies and Internal Controls 

         Over Grant Funding for Permanently 

            Relocated Damaged Facilities 





OIG-14-91-D                                   May 2014

                        OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 I www.oig.dhs.gov

                                        ~ill !J   6 2014
MEMORANDUM FOR:               Joseph L. Nimmich
                              Associate Administrator
                              Office of Response and Recovery




FROM:
                                   ,"
                              JohnV.
                                           --
                              Federal Emergency Management Agency

                                              /~/;~
                                          K~--­
                              AssistaAt"lnspector General
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA Could Realize Millions in Savings by Strengthening
                              Policies and Internal Controls Over Grant Funding for
                              Permanently Relocated Damaged Facilities

Attached for your information is our final report, FEMA Could Realize Millions in Savings
by Strengthening Policies and Internal Controls Over Grant Funding for Permanently
Relocated Damaged Facilities. We incorporated the formal comments from the
Associate Administrator, Office of Policy and Program Analysis in the final report.

The report contains two recommendations aimed at improving oversight of Public
Assistance funding provided for permanently relocated facilities. FEMA concurred with
all recommendations. Based on information provided in FEMA's response to the draft
report, we consider recommendations #1 and #2 as open and resolved.

Once FEMA has fully implemented the recommendations, please submit a formal
closeout request to us within 30 days so that we may close the recommendations. The
request should be accompanied by evidence of completion of agreed upon corrective
actions and of the disposition of any monetary amounts. Please email a signed PDF copy
of all responses and closeout requests to OIGEMOFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Tonda L. Hadley, Deputy
Assistant Inspector General for Audit Services, Office of Emergency Management
Oversight, at (214) 436-5200.

Attachment
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Permanently Relocated Facility Costs ... ………………………………………………………………3
              Recommendation. ………………………………………………………………………………………………7
              Management Comments and OIG Analysis ….……………………………………………….…….7
              Program Income Internal Controls ……………………………………………………………………..8
              Recommendation ……………………………………………………………………………………………….9
              Management Comments and OIG Analysis …………………………………………………………9

   Appendixes
              Appendix A: Objectives, Scope, and Methodology ............................................ 11
              Appendix B: Management Comments to the Draft Report ............................ ….13
              Appendix C: Schedule of Disaster Costs for Permanently Relocated Damaged
                          Facilities…………………………………….………………………………………………..16
              Appendix D: Major Contributors to This Report ................................................ 19
              Appendix E: Report Distribution ........................................................................ 20

   Abbreviations
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              NFI                   Notice of Federal Interest
              OIG                   Office of Inspector General




www.oig.dhs.gov                                                                                                           OIG-14-91-D 

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct,fas amended,
   provides Federal assistance to State and local governments to alleviate the suffering and
   damage that result from disasters for both public and private losses. Further, 44 Code of
   Federal Regulations, allows the Federal Emergency Management Agency (FEMA)
   Regional Administrators to approve funding for and require restoration of a destroyed
   facility at a new location when meeting certain requirements.

   The objective of the audit was to determine the efficiency and effectiveness of FEMA
   policies and procedures concerning disaster grant costs associated with permanently
   relocated facilities. Specifically, we determined whether (1) FEMA’s present policies and
   procedures effectively address how FEMA should use program income to offset
   permanently relocated facility costs; and (2) internal controls were in place to identify
   when applicants receive program income to offset permanently relocated facility costs.
   The audit included a review of costs for permanently relocated damaged facilities in
   Mississippi and Louisiana for Hurricane Katrina and in Texas for Hurricane Ike.

   FEMA could realize millions of dollars in cost savings by strengthening its policies,
   procedures, and internal controls over Public Assistance grant funding provided for
   permanently relocated damaged facilities. Specifically, our audit determined that
   FEMA’s present policies and procedures do not effectively address how FEMA should
   use program income to offset permanently relocated facility costs. For example, such a
   revised policy could have saved an estimated $17.8 million in project costs for the
   30 projects that we reviewed in Mississippi. Also, internal controls were not in place to
   determine when applicants received program income to offset permanently relocated
   facility costs. Therefore, FEMA should strengthen its policies, procedures, and internal
   controls over permanently relocated facilities to (1) use program income effectively to
   offset permanently relocated facility costs and (2) determine when program income is
   incurred to offset permanently relocated facility costs.

   Our two recommendations call for FEMA to initiate improvements that, when implemented,
   should help strengthen program management, internal controls, and oversight of Public
   Assistance funding provided for permanently relocated facilities.




www.oig.dhs.gov                              1                                     OIG-14-91-D

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   FEMA’s PublicfAssistancefGuide (FEMA 322, October 1999, p. 31) addresses permanent
   relocation of damaged facilities. According to the guide, an applicable Federal, State, or
   local standard, such as a floodplain management regulation, may require that a
   damaged facility be relocated away from a hazardous area. FEMA may also require such
   relocations if the facility is subject to repetitive heavy damage because of its location. In
   either case, FEMA will provide assistance for the relocation project only if it is cost
   effective and not barred by any other FEMA regulations or policies. Eligible costs of a
   relocation project include:

      •	 demolition and removal of the old facility;
      •	 land acquisition;
      •	 construction of the new facility, including compliance with environmental
         requirements; and
      •	 construction of ancillary facilities, such as roads and utilities.

   To determine cost effectiveness, FEMA measures benefits in terms of the damage
   prevented by moving away from the hazardous location. Generally, the project will only
   be cost effective if the damage is severe enough that the facility qualifies for
   replacement.

   Also, 44 Code of Federal Regulations (CFR) 206.226(g) authorizes the FEMA Regional
   Administrator to approve funding for and require restoration of a destroyed facility at a
   new location. When the Regional Administrator requires relocation, FEMA will not
   provide future funding for repair or replacement of a facility at the original site, except
   for those facilities that facilitate an open space use in accordance with 44 CFR Part 9.

   According to FEMA Permanent Relocation Fact Sheet 9580.102, FEMA will reduce the
   amount of funding for the relocated project by the net proceeds from the sale of the
   damaged facilities if the applicant sells the original property when the subgrant is open.
   The applicant’s proceeds derived from the sale of the land, buildings, or ancillary
   structures on which the damaged facility was originally located will not impact the
   funding of the reconstruction of the actual damaged facility at the new site. However, it
   will offset the permanent relocation costs associated with land acquisition and the
   construction of ancillary facilities such as roads and utilities. This recognizes that the
   ancillary facilities at the original location have a real dollar value that is included in the
   sale price of the damaged facility’s property.

   For example, if FEMA provides a total of $400,000 in funding to acquire new land and
   construct the ancillary facilities necessary to make the relocated facility operational (not
www.oig.dhs.gov                                2	                                     OIG-14-91-D

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   including construction costs of the actual facility itself), and the applicant sells the land
   on which the damaged facility was originally located for $750,000, the applicant will
   reimburse FEMA $400,000. The applicant would be able to keep the incremental
   difference in cost, which in this case would be $350,000.

   In 2012, FEMA responded to a request from the Mississippi Emergency Management
   Agency for an interpretation of program income derived from the lease or rental of a
   facility that FEMA funded for repair or replacement under the Public Assistance
   program. FEMA stated that after closeout of a project has occurred, a subgrantee does
   not have to reimburse FEMA for any income generated from the sale or lease of the
   property unless the subgrantee purchased the real property with grant funds. For large
   projects, closeout occurs after the applicant completes the approved work; the grantee
   submits an accounting and certification of the costs; and FEMA reviews, validates, and
   prepares the final reconciliation report for the large project.

   Results of Audit
   FEMA could realize millions of dollars in cost savings by strengthening its policies,
   procedures, and internal controls over Public Assistance grant funding provided for
   permanently relocated damaged facilities. Specifically—

       •	 FEMA policies and procedures did not effectively address how FEMA should use
          program income to offset permanently relocated damaged facility costs;
          thereby, potentially increasing costs to permanently relocate damaged facilities
          by an estimated $17.8 million; and
       •	 FEMA does not have internal controls to determine when applicants receive
          program income so that it can use the income to offset permanently relocated
          facility costs.

      Permanently Relocated Facility Costs

      FEMA’s current policies and procedures do not effectively address how FEMA should
      use program income to offset permanently relocated damaged facility costs;
      thereby, potentially increasing costs to permanently relocate damaged facilities by
      an estimated $17.8 million. According to 44 CFR 13.31(c)(2), if the grant is still active,
      the net proceeds from a sale may be offset against the original cost of the property.
      FEMA Permanent Relocation Fact Sheet 9580.102 states that while the subgrant is
      open, FEMA will reduce the grant for the relocated facility by the net proceeds from
      the sale of the property. In other words, this means that if an applicant receives
      program income from the sale or lease of vacated property for which FEMA
      provided funding for land and ancillary costs at another location, and that project is
      closed, the applicant can retain all the proceeds. However, there is a need for
www.oig.dhs.gov                                3	                                      OIG-14-91-D

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

       consensus among FEMA and State personnel on when program income should be
       used to offset project costs. We asked FEMA Headquarters and field Public
       Assistance personnel and State emergency management personnel at what time
       should program income be used to offset project costs of a relocated facility and/or
       ancillary facilities. Their responses ranged from—

           •	 when the project is closed (such as completing a single building for a
              city/school district/police department, etc.), to
           •	 when all the projects of an applicant are closed (such as completing all the
              building and repair work for a city/school district/police department, etc.), to
           •	 when the State grant is closed (all the work for all the projects within a State
              for a specific disaster are closed).

       For example, FEMA recently informed an applicant that it could keep any monies
       received from the lease or sale of the vacated property when it closes a single
       project. In our opinion, allowing the applicant to keep the proceeds from property
       that FEMA paid to replace provides the applicant unearned income that FEMA
       should use to offset the cost to repair and rebuild communities after a disaster.

       Finally, some Federal grant-making agencies use a Notice of Federal Interest (NFI) as
       a form of lien on real property acquired or improved with Federal grant funds.1 This
       means that facilities or land acquired with grant funds may not be mortgaged, used
       as collateral, or sold, or otherwise transferred to another party, without written
       permission of the responsible Government official. The NFI protects the
       government’s interest in the property and the purpose for which the agency
       awarded the funds. FEMA could use a NFI or a similar legal agreement to alert them
       when program income is derived from vacated damaged facilities.

       Potential Savings Associated With 30 Mississippi Projects

       We reviewed 30 permanently relocated facilities in Mississippi damaged by
       Hurricane Katrina. FEMA provided $64.4 million—$7.5 million for new land
       acquisitions and $56.9 million for ancillaries—to relocate the 30 damaged facilities.
       The value of these vacated or damaged properties, based on county tax assessors’
       estimates after Katrina, is approximately $27.4 million. If the applicants had sold
       these 30 properties before project closeout for their estimated values, FEMA would
       have received about $17.8 million to offset project costs (see appendix C).




   1
    NFI, April 10, 1996, Department of Health and Human Services, grant number 03-H-000, 315-13 to
   Delmarva Rural Ministries, Inc.
www.oig.dhs.gov                                   4	                                        OIG-14-91-D

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

      According to current FEMA guidance, if the applicant sells the damaged vacated
      property before the project is closed, FEMA must offset the net sales proceeds
      against the costs for the purchase of a new site plus the associated ancillary costs for
      the new site. If the applicant waits until the project is closed, it can retain all
      proceeds from the sale or lease of the vacated property without any offset
      (reduction) to the costs FEMA incurred on the relocated site. Our review of the
      30 relocated properties revealed that, in the cases where FEMA paid for new land
      and ancillaries, none of the applicants sold the damaged properties before project
      closeout of the new project. Therefore, FEMA will not be able to use the estimated
      $17.8 million to offset the $64.4 million paid for the purchase of new land and
      related ancillaries. In our opinion, program income should be used to offset FEMA-
      incurred cost regardless of when the applicant realizes the income. This simplifies
      the process, allows the applicant to participate in the program income in a timely
      manner, and allows the revitalization of damaged facilities potentially producing
      needed revenue for a recovering community. Although our review included only
      30 relocated facilities, FEMA’s interpretation of regulations, policies, and procedures
      concerning when program income can be used to offset relocation expenses affects
      all future funding that FEMA provides for relocated facilities. Therefore, if FEMA
      changed its policies to allow FEMA to participate in program income regardless of
      when income occurs, FEMA could reduce its cost to operate the Disaster Relief Fund.

      Catholic Charities Housing Case Example

      For example, in Biloxi, Mississippi, Catholic Charities Housing, a not-for-profit
      organization, owned the Santa Maria de la Mer apartment building. Santa Maria de
      la Mer is a low-income senior citizen apartment building damaged by Hurricane
      Katrina (figure 1). FEMA provided $23.7 million funding to construct a facility at a
      new location and approximately $5.5 million for land and ancillary costs at the new
      site (figure 2). The 2012 assessed value of the old building and property was $5.9
      million. Under present policies, if Catholic Charities Housing sells the building and
      property at the old site for the assessed value of $5.9 million prior to project closure,
      FEMA would receive $5.5 million to offset the $5.5 million that FEMA obligated to
      acquire the land and ancillaries to build the new apartment building, and the
      applicant could keep the remaining $400,000. However, if Catholic Charities Housing
      sells the property after FEMA closes out the project, FEMA will allow the applicant to
      keep the estimated $5.9 million sales proceeds without any offset to the project.
      Hurricane Katrina occurred in 2005, 8 years ago, and the applicant has not disposed
      of the vacated property. Catholic Charities Housing completed the new project in
      June 2013. Therefore, when FEMA officially closes the project, according to the
      guidance FEMA recently provided an applicant, FEMA cannot use any future
      proceeds from the sale of the damaged property to offset new property relocation
      costs.

www.oig.dhs.gov                              5                                      OIG-14-91-D

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



                         Figure 1. Santa Maria de la Mer (damaged facility) 





                                   Source:fOIGfsitefvisitf(Marchf21,f2013)f

                            Figure 2. Santa Maria de la Mer (new facility)




                                  Source:fOIGfsitefvisitf(Decemberf19,f2012)f

      FEMA’s policy of allowing applicants to benefit from income received on vacated
      land after closeout also delays the revitalization of damaged facilities, potentially
      taking away needed revenue for a recovering community. For example, Catholic
      Charities Housing’s Santa Maria de la Mer property sits near several beachfront
      hotels and casinos along the Biloxi, Mississippi, Gulf Coast, making the property
      prime real estate for commercial development. If the applicant had leased or sold
www.oig.dhs.gov                                6                                   OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

      the property and converted it to commercial use, such as a hotel, the property
      would have generated sales and property tax revenue that Biloxi could have used to
      either reduce taxes or make other improvements to the community. Using past sales
      and property tax revenue from a hotel in the same area of similar size, we estimate
      that the property could have generated approximately $700,000 annually in tax
      revenue.

      Conclusion

      FEMA’s current policies and procedures do not effectively address how FEMA should
      use program income to offset permanently relocated damaged facility costs, thereby
      potentially increasing costs to permanently relocate damaged facilities by an
      estimated $17.8 million. Further, our discussions with FEMA headquarters and field
      personnel and State emergency management personnel revealed that a
      disagreement exists as to when program income results from the sale or rental of
      permanently damaged facilities. None of the interpretations effectively maximize
      the use of program income to offset costs for permanently relocated damaged
      facilities. If FEMA revises its policies and procedures to require applicants to report
      income derived from the sale or rental of permanently damaged facilities (regardless
      of when they receive the income), FEMA could potentially offset millions of dollars
      in project costs. For example, such a revised policy could have saved an estimated
      $17.8 million in project costs for the 30 projects that we reviewed in Mississippi for
      this report.

      Recommendation

      We recommend that the Associate Administrator, Office of Response and Recovery:

      Recommendation #1:

      Review the current policy on when FEMA will participate in program income and
      (1) determine the best time within the grant cycle to end the program income
      requirement (project closeout, or FEMA-State Agreement Closeout); and
      (2) research the viability of placing a lien on or Notice of Federal Interest on
      properties when FEMA pays to permanently relocate damaged facilities.

      Management Comments and OIG Analysis

      FEMA concurred with recommendation #1. FEMA said that it will review its
      procedure to determine the most appropriate time in the program grant cycle to
      end the program income requirement, namely whether it should end at project
      closeout, at applicant closeout, or at closure of the FEMA-State Agreement. Also,

www.oig.dhs.gov                             7                                     OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

      FEMA will conduct additional research and analyze whether it has authority to utilize
      such mechanisms as part of the program income requirement, including the
      imposition of an NFI or similar arrangement, on facilities where no FEMA funds were
      provided (i.e., abandoned facilities and properties). FEMA will also analyze the legal
      framework required to implement such actions. Additionally, FEMA will research the
      statutory and regulatory authorities of other Federal agencies that use NFIs and the
      feasibility of FEMA using them as part of the Public Assistance Program, including
      any associated tracking requirements or other costs for implementing such an
      approach. FEMA expects to complete these actions by February 5, 2015. We have
      included FEMA’s response in its entirety in appendix B of this report.

      We concur with FEMA’s planned actions. This recommendation will remain open
      and resolved until FEMA provides supporting documentation that it has completed
      all planned actions.

      Program Income Internal Controls

      FEMA did not have effective internal controls to determine when applicants earn
      program income so that it could use the income to offset permanently relocated
      facility costs. 44 CFR 13.31(c)(2) and FEMA Permanent Relocation Fact Sheet
      9580.102 allow FEMA to use the net proceeds from the sale of damaged property to
      offset the cost of new property. However, the regulation and policy do not establish
      any internal controls to assist FEMA in identifying when applicants earn program
      income. We discussed our concerns with FEMA Public Assistance personnel and
      asked how FEMA determines whether an applicant receives program income either
      before or during the closeout process. They informed us that FEMA’s closeout
      process did not contain any procedures designed to identify income generated from
      damaged property. FEMA officials said that, while they do inspect the old and new
      sites, the main purpose of the inspections was to determine whether the applicant
      completed the FEMA-funded relocation project.

      We reviewed FEMA Standard Operating Procedure 9570.14 that addresses the Grant
      Closeout Process. This procedure did not contain any requirement for the reviewer
      to confirm whether the applicant received any income on vacated real property.
      Therefore, because FEMA has no tracking or monitoring system to identify program
      income and FEMA relies on the applicant to inform FEMA of any income it realized
      on a vacated property, there are no effective controls to determine when applicants
      earn program income. For example, FEMA did not know that the Gulfport,
      Mississippi School District (an applicant from Hurricane Katrina) received $50,000
      from leasing the Eastward Community Education and Technology property that it
      vacated when FEMA funded a relocated project for land and ancillary expenses.


www.oig.dhs.gov                             8                                    OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

      Some Federal grant-making agencies use an NFI as a form of lien on property
      acquired or improved with Federal grant funds. Grantees or subgrantees must file
      the NFI at the time of acquisition or before construction. The NFI protects the
      government’s interest in the property and the purpose for which the agency
      awarded the funds. Agencies may also require the deed for such property to include
      appropriate wording to protect the government’s interest. FEMA could use the NFI
      or a similar legal agreement as an internal control to alert them when program
      income is derived from vacated damaged facilities.

      Conclusion

      FEMA does not have internal controls to determine when applicants receive
      program income so that FEMA can use it to offset permanently relocated facility
      costs. FEMA officials could not provide any policies and procedures or evidence of
      internal controls in place that would alert them when applicants earned/generated
      program income from the sale and/or rental of damaged facilities. Instead, FEMA
      relied on the applicants to notify them when damaged properties produced program
      income. In one instance, an applicant received $50,000 of lease income on damaged
      facilities without FEMA’s knowledge before project closeout. However, FEMA was
      unaware of the program income because it did not have controls in place to track
      program income.

      Recommendation

      We recommend that the Associate Administrator, Office of Response and Recovery:

      Recommendation #2:

      Develop internal controls to ensure that applicants report program income from
      vacated facilities to offset project costs when FEMA funds the land and/or ancillary
      facilities to relocate the original facility.

      Management Comments and OIG Analysis

      FEMA concurred with recommendation #2. FEMA stated that it will disseminate
      additional guidance emphasizing the program income reporting requirement so that
      FEMA consistently and properly handles this requirement as part of the existing
      closeout procedures. FEMA expects to complete this action by October 5, 2015. We
      have included FEMA’s response in its entirety in appendix B of this report.




www.oig.dhs.gov                             9                                    OIG-14-91-D

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

      We concur with FEMA’s planned action. This recommendation will remain open and
      resolved until FEMA provides supporting documentation that it has completed all
      planned actions.




www.oig.dhs.gov                          10                                  OIG-14-91-D

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of the audit was to determine the efficiency and effectiveness of FEMA
   policies and procedures and internal controls for disaster grant costs associated with
   permanently relocated facilities. Specifically, we determined whether (1) present
   policies and procedures effectively address how FEMA should use program income to
   offset permanent relocation facility costs; and (2) proper internal controls were in place
   to identify when applicants incurred program income to offset permanently relocated
   facility costs.

   To accomplish our objective, we performed the following:

      •	 Reviewed FEMA policies and procedures on permanent relocation projects and
         reviewed FEMA guidance, procedures, and practices on program income.
      •	 Interviewed FEMA officials in FEMA Headquarters, FEMA Regions IV and VI as
         well as FEMA area offices including the Mississippi and Louisiana Recovery
         Offices, and interviewed Mississippi Emergency Management Agency personnel.
      •	 Obtained data from FEMA offices on permanently relocated projects including
         land acquisitions, site work, and ancillary costs.
      •	 Evaluated FEMA’s tracking and monitoring efforts on facilities that FEMA 

         relocated to new locations.

      •	 Reviewed FEMA’s closeout procedures to determine whether it provided specific
         guidance for potential land sales of vacated properties when FEMA funded
         either land, site work, or ancillary work at another location.
      •	 Met with county tax assessors to obtain property values and legal documents
         applicable to vacated properties when FEMA provided funding for land and or
         ancillary facilities at another location. Appendix C lists property values for
         vacated/old site properties based on the county tax assessors’ assessed values.

   Our audit scope included permanently relocated damaged facilities associated with
   Hurricane Katrina in Louisiana and Mississippi, and Hurricane Ike in Texas.




www.oig.dhs.gov                              11	                                    OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   We conducted this performance audit between June 2012 and August 2013 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                            12                                   OIG-14-91-D

                               OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Appendix B 

   Management Comments to the Draft Report
                                                                                       l'.S. Otpanmtnl of Homelan d ~t<"uri1)
                                                                                       WU>hingtoo. DC 20-172




                                             FEB 1 2 Z0\4


            MEMORA DUM FOR: John V. Kelly
                            Assistant Inspector General
                            0 ffi cc of Emergency Management Oversight
                            Office of Inspector General

            FROM :                      David J. Kaufman
                                        Associate Administrator
                                        Ollicc of Policy and Program Analysis

            SUBJECT:                    FEMA ·s Response to Draft Repon for OIG Project 12-140-EMO-FEMA
                                        ·'f-EMA Could Realize Millions in Savings by Strengthening Policies
                                        and Internal Controls over Grant Funding for Permanently Relocated
                                        Damaged Faci lities"

            Thank you for the opponunity to respond to the Draft Rcpon for OIG Project 12-140-EMO-
            FEMA " FEMA Could Realize Millions in Savings by Strengthening Policies and Internal
            Controls Over Grant founding for Permanently Relocated Damaged Facilities'·. The Federal
            Emergency Management Agency (FEMA) appreciated the opponunity to meet with the
            Department of Homeland Security Office of Inspector General (010 ) to discuss the draft rcpon
            and FEMA' s responses to the recommendations.

            Based on these discussions, FEMA acknowledges that the OIG is revising Recommendation # I
            to read: ··Review the c urrent policy on when FEMA will participate in project income and 1)
            determine the best time within the grant cycle to end the program income requirement (project
            closeout: applicant closeout: or FEMA-i)tate Agreement Closeout) ; and 2) r2.wwrrh the viability
            ofplacing a lien on or Notice of Federal Interest (NFI) on properties when FEMA pays to
            permanemly relocate damaged facilities ··.

            As indicated in the OIG's repon, FEMA ' s current procedure is to reduce Public Assistance ( PA)
            grant funding by the amount of program income received by an applicant that is directly
            generated by a grant-supported activity, pursuant to 44 CFR I 3.25. FEMA applies this
            requirement during the grant period. Once the grant period has ended, an applicant no longer has
            the obligation to report program income or reimburse FEMA any income generated by the grant
            supported activity, including the sale or lease of propeny. It should be noted that none of the
            projects listed in Appendix C have had final project closeout at this time. Therefore. if any of the
            applicants listed in Appendix C generate program income before the grant period ends, FEMA
            has the ability to reduce the applicant's grant funding as appropriate pursuant to 44 CFR 13.25.
            This regulation aligns with FEMA' s responsibility to ensure sound usc of federal funds by
            reducing assistance when program income occurs while the grant period is open. As FEMA

                                                                                     "'"'Wfema.. gov




www.oig.dhs.gov                                          13                                                              OIG-14-91-D

                               OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




              agn~es   with the ora as to the principles of sound financial   steward.~ hip   and fiscal reporting
              practices contained in the Drat\ Report' .~ r ecommeJJdations, F!iMA concurs with Lhe
              recommemlo.tinn-; to re,•iew H:.MA's current procedure on prO!!:rltm incCimt: und issue Additional
              guidance COlphasizins the progrom income requin:ment.

              OIG Recommendation #I: Review the current policy on when FEMA will participate in project
              income and 1) detcrm.ine the best time within the grant cycle to end the program income
              n:quir~ment (prqiect cloo;eout; applicant closeout; or Fc~1A-State Agreement Cl()seout); And 2)
              research tbe vinbiliry of placing Blicn on or NFl on propertie~ when FP.:VIA pnys w p~'tman~rnly
              relocate damaged lacilitie~;.

              Response: Concur: FEMA agrees with the OIG that identifying income generated fmm vacated
              propt:rty amlior /hcilities following a FBMA funded permanent relocation prnjecl is appropriate.
              Fl'\fA will review its procco.lurc to llc t.crmin.c the most appropriate tim~ in the progra.rn gra.ut
              cycle to end the program income r~quirement. namely whether it should end at project clo ~.:uut.
              at applicant closeout, or at closure n r the FF.MA·Siate Agreement.

              ThcOlG aIS<> recommended that FEMA c1msider th~: use of a NJil as a torm of lien on property
              acquired or improved with Federal. grant funds, or a simil.ar document, a~ an internal controlt.o
              alert FEMA when program income is dcnved fmm vacated damaged facilities. lbc: OIG cite!> an
              e.xnmple of a lorm of lien utilized by the U.S. Department of Hcallh and Human Services (HHS)
              as part of one of its grant programs. FEMA currently does 110t have the regulatory authority to
              usc NFis, ~uch as outlined in the HHS regulations. Further, the c-ircumstances of program
              income a.~snciated with related projects in the FEMA P A Program may difli:r from the
              implementation of the HHS grant program, and il is uncertain whether fEMA has the statutory
              authority 10 promulgate such regulaTions.

              FEMA will condu(.:t additionalt·esearch and analyze whether it has authority to utilize such
              mechanisms as part of the program income requirement, including the imposition of a NFl or
              ~milar arrangement, on facilities where no FEMA funds were pmvided (i.e., abandoned facililit:s
              and pro!)(:rtics). FEMA will also analyz~ the le"al framework required to imp!l:rnc..'nt ~uch
              nction.~ . Additionally, Fl-:MA will research the statutory and regulatory ilUthor i tie.~ nf othe•·
              Federal agencies that usc NF!s, and the feasibility of their u~e by FEl\·fA as part of the PA
              Program, induding any asso~iated tracking requirements or other co;;ts for implementing such an
              approach.

              i'H~ will conduct thJs review of the PA Program guidnocc rofetenc~d in our re~ponse to OlG
              R1.'C<lmmcndmitm #2. While the comprehensive PA Program !!luidance review process is a longer
              timeframe, the review of this issue regarding FEMA' s program income procedure ""; !l he
              complete within 12 months.

              FEMA requt:~ll> that this recomrm;ndation rcmnin resolved and open pt:mling the com[>letion of
              the PA ['rogram guida11ce revie\\ .

              JC11t imated (;()mplctioo Dare (F.CD): February 5, 20l5




                                                                1




www.oig.dhs.gov                                         14                                                           OIG-14-91-D

                             OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




              OIG Rr<:IJmmendation 11-2: De\·elop imemal cnnlrols to ~1sur.: that applicants r.:pon program
              im:ome from vac.. tcd facilities to oftSct project costs when H~MA funds tbe land aodlor ancillary
              facilities to relocate the original fac1lity.

              Re~~pnnsl: :   Co nl:ur: FF.~1A .,..;u disscminme addirional guidance emphasizing the program
              income reporting requirement~ that this requirement is consiSLI.'ntly and. pmperl) ha.ndJed as
              part of the existing closeout procedures. fE.\1A is currently developing a comprehensive Pi\
              guide, which is expected to b<- completed in approX-imately 20 monlhs and "~-~.ill indude pmgram
              income guidance. Once complete, 11 will be pro"idcd lo the OlG. This guidance YtiU n:!lcct the
              resu.lt.~ of the review refenmccd abm e iUld ''ill clarifY when the program mcume rcqwremcnt
              applies, whether it is consistent with fhMA ·s current po licy •II' reflect-; any chan~e.o; to th e
              pohcy. FEM/\ recently issued an updarcd version of1hc PA Program )..1anagcmcnt and Grant
              Closeout Standard Operating Pnx:edure (SOP9570. 14, Deccmhl.'t 2013). which include~ fhe
              requirement for the completion of the Financial Status Report (SF-425) as pan of the gr.mt
              closeout process, and the SF-425 includes a section on reporting of program income.

              fJ;MA requests that this recommendutinn •emain resolved and open pending the completion of
              the PA Program guidance re~icw.

              Estimated Completion Date (ECD): October 5, 2015

              ThMk you again for the: opportuniry to comment l'" 0 1< i-12- 140-l.:.MO-fCI\1A Draft Report
              " FF.\1A Could Renli?.e Millions m Saving by Stn:ngthcning Polic1t:S and Internal Control~ o~cr
              Grant Funding tor Pcnnanent Relocated DAmaged Facilities" and for the wurk \hat you and your
              team have done to hetter infoTTD w throughout thh audit :so that w~ may enhunce the program' s
              overall cffcctivelless . Please ~t 811Y qu.:stions regarding this response to Gary \kKeon,
              FEJ..·1A'~ GAO/OIG Broncb Chief Audit Liaison Otlkc ~t 202-646-1 308.




www.oig.dhs.gov                                       15                                                      OIG-14-91-D

                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



   Appendix C
   Schedule of Disaster Grant Costs for Permanently Relocated
   Damaged Facilities


                         Ancillary-    Ancillary-
                         Site Work    Site Work                     Land         Estimated       *Estimated
                          Project        Cost          Land          Cost      Property Value      Savings
       Applicant            No.       (New Site)    Project No.   (New Site)      (Old Site)      To FEMA
 City of Bay St. Louis
 (Bay Waveland
 Garden Center)              11141       $92,640          1107      $69,615           $24,000       $24,000
 Bay St. Louis School
 District                    11157     3,536,331         11162        93,172          142,400       142,400
 Catholic Diocese of
 Biloxi (St.
 Claire/Holy Trinity
 Schools)                    11039     1,060,139           N/A          N/A         3,830,000     1,060,139
 Diamondhead
 Water & Sewer
 District                    11012     3,849,000           N/A          N/A           273,948       273,948
 Hancock County
 (Human Services
 Building)                   11242       773,863         11228      838,554         1,321,425     1,321,425
 Hancock County
 (Government
 Annex)                      11214       708,645         11215      432,251           243,490       243,490
 Hancock County
 School District
 (Gulfview
 Elementary)                 11056     5,034,825           N/A          N/A           800,000       800,000
 Hancock County
 School District
 (Murphy
 Elementary)                 11010     4,407,636           N/A          N/A            24,304        24,304
 Hancock County
 Wastewater                  11027       287,588         11026        62,352          114,400       114,400
 St. Stanislaus
 College Preparatory         11046     2,899,876           N/A          N/A         9,042,711     2,899,876
 City of Biloxi
 (Community
 Center/Library/Mul
 ti-Use Building)            11199     1,168,270           N/A          N/A           642,804       642,804
 City of Biloxi
 (Lighthouse Park &
 Visitor Center)             11208       770,975         11205     1,114,165          346,403       346,403
www.oig.dhs.gov                                     16                                          OIG-14-91-D

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

 Catholic Charities
 Housing (Santa
 Maria de la Mer)       11232   4,165,358        11231   1,309,768   5,934,190     5,475,126
 Catholic Diocese of
 Biloxi (St. Paul/St.
 Vincent DePaul)        10709   3,738,264         N/A         N/A     443,016        443,016
 Catholic Diocese of
 Biloxi (Mercy Cross
 School/St. Patrick
 School)                10714   4,250,426         N/A         N/A     832,500        832,500
 D ‘Iberville
 Community Club         11234     821,083         N/A         N/A      15,598         15,598
 Gulfport School
 District (Eastward
 Community)             11049     555,178        11047    409,360      17,595         17,595
 City of Gulfport
 (Fire Station No. 7)   11227     725,864         N/A         N/A      62,475         62,475
 City of Gulfport
 (Charles Walker
 Community Center)      11143   1,245,161        11129   1,399,476    712,500        712,500
 Harrison County
 (Gulfport Library)     11226   2,287,103        11224    389,253     637,353        637,353
 Harrison County
 School District
 (D ‘Iberville Middle
 School)                 8861   2,717,912        9049     850,654     123,625        123,625
 Long Beach School
 Superintendent
 (Harper McCaughan
 Elementary School)     11051   3,837,253        11054    443,149     583,625        583,625
 City of Pass
 Christian (Police &
 Emergency
 Operations)            11236     675,784        11237    109,995      32,965         32,965
 Pass Christian
 Public School
 District (Pass
 Christian
 Elementary School
 Maintenance
 Building               10913     145,998         N/A         N/A      26,450         26,450
 Pass Christian
 Public School
 District (Pass
 Christian
 Elementary and
 Middle Schools)        11009   1,069,212         N/A         N/A     234,028        234,028




www.oig.dhs.gov                             17                                   OIG-14-91-D

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

 Jackson County
 (Mississippi
 Department of
 Corrections)             11272       130,798           N/A          N/A           107,340       107,340
 Jackson County
 School District
 (School Bus &
 Maintenance
 Facility)                11170       480,395           N/A          N/A            34,970        34,970
 Jackson County
 School District (St.
 Martin Upper
 Elementary &
 Middle School)           11148      5,073,007          N/A          N/A           130,430       130,430
 University of
 Southern
 Mississippi
 (Maintenance
 Building.)               11270       282,534           N/A          N/A           481,680       282,534
 University of
 Southern
 Mississippi
 (Hopkins Building)       11264       133,737           N/A          N/A           159,940       133,737

 TOTALS                           $56,924,855                 $7,521,764        $27,376,165 $17,779,056
   Source: FEMAfandfestimatedfpropertyfvaluesffromfHancock,fHarrisonfandfJacksonfCounty,fMississippiftaxf
   assessors’frecords.

    * The estimated savings to FEMA is the smaller of the land cost for the new site plus
    ancillary site work compared to the estimated property value of the old site.



    �




www.oig.dhs.gov                                  18                                          OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   David Kimble, Director
   Larry Arnold, Audit Manager
   Gary Rosetti, Senior Auditor
   Mary James, Senior Auditor




www.oig.dhs.gov                             19                      OIG-14-91-D

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security
   Secretary
   Chief of Staff
   Chief Financial Officer
   Under Secretary for Management
   Chief Privacy Officer
   Audit Liaison

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Associate Administrator, Office of Response and Recovery
   Director, Risk Management and Compliance
   Office of Policy and Program Analysis
   Audit Liaison, Region IV
   Audit Liaison, Region VI
   Audit Liaison, (Job Code G-12-140)
   Audit Liaison, Mississippi Recovery Office
   Audit Liaison, Louisiana Recovery Office

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure




www.oig.dhs.gov                            20                                 OIG-14-91-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
